                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I -11060022                                                                      Page 1 of 1




         NSF's Office of Inspector General was alerted about a matter concerning duplicative funding in
         proposals submitted by a company1 to NSF. This matter was investigated to determine whether or
         not this allegation could be substantiated. A forensic review of the company's finances revealed that
         this company did not receive duplicative funds from NSF. However, NSF OIG discovered that the
         company did not adhere to the terms of the grant and repaid the misspent funds 2•

         Accordingly, this case is closed.




         2




NSF OIG Form 2 (11/02)
